           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




   FIELD OFFICES’ COMPLIANCE WITH
      POLICIES AND PROCEDURES
          WHEN PROCESSING
     NONCITIZEN SOCIAL SECURITY
        NUMBER APPLICATIONS

     August 2004   A-08-04-14005




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY

MEMORANDUM

Date:   August 30, 2004                                                                Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Field Offices’ Compliance with Policies and Procedures When Processing Noncitizen
        Social Security Number Applications (A-08-04-14005)


        OBJECTIVE

        Our objective was to evaluate the Social Security Administration’s (SSA) compliance
        with policies and procedures when processing noncitizen Social Security number (SSN)
        applications at field offices (FO).

        BACKGROUND

        About Three Out of             Noncitizens can apply for an SSN at one of SSA’s
        Every Four Applications        1,300 FOs around the country. When a noncitizen applies
        for Original SSNs at           for an original SSN,1 he or she must complete, sign and
        FOs Are from                   submit a Form SS-5, Application for a Social Security
        Noncitizens                    Card, to SSA and provide acceptable documentary
                                       evidence of (1) age, (2) identity, and (3) work authorized
                                       lawful alien status and/or a valid nonwork reason.2 About
        three out of every four applications for original SSNs at FOs are from noncitizens. In
        Fiscal Year 2003, SSA assigned about 1.2 million original SSNs to noncitizens who
        applied at FOs. Appendix B provides a detailed description of how SSA assigns original
        SSNs to noncitizens.


        1
         Noncitizens who apply for SSNs through the Enumeration at Entry (EAE) program are subject to
        different application policies and procedures. Under EAE, the Department of State (State) and the
        Department of Homeland Security (DHS) collect and transmit to SSA application data as part of the
        immigration process.
        2
            Program Operations Manual System (POMS) sections RM 00202.001A and RM 00203.001C.
Page 2 – The Commissioner

Because of SSN integrity concerns, SSA reevaluated its policies and procedures for
assigning SSNs to noncitizens. Accordingly, FO personnel now verify immigration
documents with the Department of Homeland Security (DHS) and/or the Department of
State (State) before SSN assignment.3 In addition, FO personnel record a description
of noncitizens’ immigration documents and the verification of these documents on the
SSN application. This information serves as an audit trail by documenting FO actions
taken during SSN application processing.

To accomplish our objective, we reviewed SSA policies and procedures for assigning
original SSNs to noncitizens.4 To evaluate FO compliance with these policies and
procedures, we identified a population of 106,675 noncitizens to whom SSA assigned
original SSNs in March 2003 based on applications processed at FOs. We then
randomly selected and reviewed a sample of 300 SSNs. We also visited 6 FOs in 3 of
SSA’s 10 regions to meet with management and staff and observe personnel
processing SSN applications. Appendix C includes a detailed description of our scope,
methodology and sample appraisal.

RESULTS OF REVIEW
Although SSA has instituted numerous policies and procedures designed to prevent
                                   improper SSN assignment, they can only be effective if
 FO Personnel Did Not Fully personnel processing SSN applications comply with
 Comply with Policies and          the controls. We estimate that FO personnel did not
 Procedures in About               fully comply with policies and procedures in about
 30 Percent of the                 30 percent of the noncitizen SSN applications they
 Noncitizen SSN                    processed during March 2003. The most common
 Applications They                 occurrence of noncompliance was FO personnel’s
 Processed                         failure to document the verification of immigration
                                   status with DHS. In addition, based on our
                                   observations during FO visits, personnel did not
consistently use black lights to verify the authenticity of immigration documents
presented by noncitizens. Although our review did not identify any noncitizens who
inappropriately obtained an SSN, we are concerned that failure to comply with policies
and procedures may increase the Agency’s risk of exposure to improper SSN
assignment and misuse, and identity theft. To help ensure FO compliance, we believe
SSA should consider enhancing controls within the Modernized Enumeration System
(MES) that will prevent SSN assignment when personnel have not adhered to the
controls specified in SSA’s policies and procedures.




3
    SSA fully implemented this policy in September 2002 (Policy Instruction EM-02091).
4
 Policy Instruction EM-02091 contains basic instructions for DHS verification and POMS, section
RM 00200 et. seq., contains general policies and procedures for processing SSNs.
Page 3 – The Commissioner

FIELD OFFICE PERSONNEL DID NOT FULLY COMPLY WITH POLICIES AND
PROCEDURES WHEN PROCESSING NONCITIZEN SOCIAL SECURITY NUMBER
APPLICATIONS

We estimate FOs did not fully comply with SSA policies and procedures when
processing over 31,000 SSN applications for noncitizens in March 2003. This figure
represents about 30 percent of the 106,675 original SSNs the Agency assigned to
noncitizens who applied at FOs during this period.5

          Figure 1: Estimated Percentage of FO Compliance with Policies and
                    Procedures When Processing Noncitizen SSN Applications


                  73,606 SSNs                                          FO did not comply with
                     (69%)                                             policies and procedures
                                                                       SSA could not locate the
                                                                       SSN Application
                                                                       FO complied with policies
                                                                       and procedures



                                                              31,647 SSNs
                                                                 (30%)
                         1,422 SSNS
                             (1%)

TYPES OF NONCOMPLIANCE

The most common occurrences of FO personnel’s noncompliance with policies and
procedures were failure to record on the SSN application: (1) evidence of verification of
immigration status with DHS; (2) descriptions of at least two documents establishing the
applicant’s age, identity, and work-authorized lawful alien status; and (3) descriptions of
the specific DHS documents reviewed. Table 1 shows the specific occurrences of
noncompliance we identified.6




5
 We could not determine whether SSA complied with policies and procedures in one percent of our
sample cases because the Agency could not locate the SSN applications.
6
    SSA identified similar types of noncompliance during Agency reviews conducted in selected regions.
Page 4 – The Commissioner

Table 1: Specific Occurrences of Noncompliance in Sampled Items

                            Characteristics Identified                      Number of
                                                                           occurrences
Verification of immigration status with DHS not recorded                        36
Minimum two evidentiary documents not recorded                                  16
DHS document not recorded                                                       14
SSA employee signed SSN application before DHS verification                     13
Student documentation not recorded                                              11
DHS class of admission not recorded (nonimmigrants)                              7
Identification for individual applying on behalf of another not recorded         5
Country of passport not recorded                                                 4
Material discrepancy between DHS and SSN application information                 4
Immigration (Alien or Admission) number not recorded                             4
SSA employee did not date the SSN application                                    4
Alien or Admission number was incorrect                                          2
SSA employee did not sign the SSN application                                    2

Number of occurrences identified                                              122
Multiple occurrences identified (more than one occurrence per case)            33
Number of SSNs in sample not in compliance with policies and procedures        89
Percentage of noncompliance cases to sample (89/300)                          30%

We believe the following instances of FO personnel’s noncompliance with policies and
procedures illustrate SSA’s risk of exposure to improper SSN assignment and misuse.

•   An FO employee did not record on the SSN application verification of the applicant’s
    immigration status with DHS or the applicant’s nonimmigrant class of admission.
    We determined from DHS records that the noncitizen was a student. However, the
    FO employee did not record evidence of the applicant’s full-time school attendance
    and authorization to work. Because the employee did not comply with policies and
    procedures, SSA did not have documented assurance that this noncitizen was
    actually in school and/or authorized to work.

•   An FO employee did not record on the SSN application verification of a child’s
    immigration status with DHS or the identification document for the child’s father (who
    applied on behalf of the child). In addition, there were material discrepancies
    between the SSN application and DHS records regarding the child’s first name and
    date of birth (a 6-year discrepancy). Moreover, the FO employee signed the SSN
    application before DHS verification. Because the employee did not comply with
    policies and procedures, SSA did not have documented assurance that it assigned
    the SSN to the proper individual.
Page 5 – The Commissioner

FIELD OFFICE PERSONNEL DID NOT ALWAYS USE BLACK LIGHTS TO ENSURE
THE AUTHENTICITY OF IMMIGRATION DOCUMENTS

Through observations at the six FOs visited, we determined that SSA personnel did not
always use black lights to verify the authenticity of immigration documents. Our
observation of the processing of 60 noncitizen SSN applications showed that FO
personnel did not use a black light in 23 (38 percent) instances.7 SSA procedures
require FO personnel to view documents under a black light to help detect fraudulent
DHS documents. FO personnel view documents under a black light to ensure
conformance to special identification features.8 Although SSA policy requires FO
personnel to verify the immigration and identity status of all noncitizens with DHS, this
process does not ensure that the documents themselves are valid. For example, an
individual could present a counterfeit document containing the same information as a
legitimate one and FO personnel may not detect this deception without a black light
examination. We believe it is important for FO personnel to use black lights in
conjunction with DHS verification to prevent improper SSN assignment.

OPPORTUNITY TO HELP ENSURE FIELD OFFICE COMPLIANCE WITH POLICIES
AND PROCEDURES

When FO personnel do not fully comply with all policies and procedures for processing
noncitizen SSN applications, the Agency increases its risk of improper SSN assignment
and misuse. While SSA’s MES allows FO personnel to record evidence reviewed and
accepted, as required by policies and procedures, it does not prevent SSN assignment
when personnel do not enter this information into the system. For example, although
policies and procedures require FO personnel to record, on the SSN application, a
description of the immigration documents presented and reviewed and DHS verification,
MES does not prevent SSN assignment if they fail to record this information.9

To help ensure FO compliance with policies and procedures, we believe SSA should
consider MES enhancements that would prevent SSN assignment when FO personnel
do not comply with the Agency’s policies and procedures. SSA could incorporate
separate and distinct data fields into MES that would capture specific evidence
reviewed and accepted. That is, SSA could change the MES evidence field from a free-
form entry format to one requiring discrete entries (for example, a noncitizen’s
immigration number and class of admission, and specific immigration documents

7
 In a recent Government Accountability Office (GAO) study, entitled Social Security Administration:
Actions Taken To Strengthen Procedures for Issuing Social Security Numbers to Noncitizens, but Some
Weaknesses Remain (GAO-04-12, October 2003), over one-third of FO staff said they do not routinely
use a black light to verify the authenticity of applicants’ immigration documents.
8
    POMS, section RM 00203.720.
9
 A recent GAO study (see footnote 7) pointed out that it is possible for FO staff to process an SSN
application without keying information into MES describing the evidence staff reviewed and accepted.
Under this situation, there is no consistent means for SSA to confirm and review what verifications FO
staff actually performed when they processed an SSN application.
Page 6 – The Commissioner

reviewed and verified with DHS). We believe MES controls should prevent SSN
assignment when FO personnel do not enter such information. Such controls would
assist FO personnel through the SSN application process and help prevent improper
SSN assignment.

Management and staff at all six FOs we visited agreed that MES enhancements, as
discussed above, would assist personnel in complying with policies and procedures.
SSA has discussed plans to modify MES to capture more discrete information about the
evidence submitted during the SSN application process. We understand that such
modifications must be considered as part of the Agency’s information technology
prioritization process. Nevertheless, we encourage the Agency to begin the systems
planning process for MES enhancements.

CONCLUSION AND RECOMMENDATIONS
Despite SSA’s safeguards to prevent improper SSN assignment to noncitizens, the
Agency remains at risk to such activity when FO personnel do not fully comply with
policies and procedures. We recognize SSA’s efforts can never fully eliminate the
potential that noncitizens may inappropriately acquire and misuse SSNs. Nonetheless,
we believe SSA has a stewardship responsibility to ensure that FO personnel comply
with all policies and procedures. We believe SSA would benefit by taking additional
steps to strengthen SSN integrity and reduce its risk of exposure to improper SSN
assignment and misuse, and identity theft.

Accordingly, we recommend SSA:

1. Reemphasize to FO personnel the importance of following all policies and
   procedures, including the use of black lights to detect counterfeit documents, when
   processing SSN applications from noncitizens.

2. Conduct periodic studies to assess FO compliance with policies and procedures for
   processing noncitizen SSN applications and take corrective action as needed.

3. Consider MES enhancements that would prevent SSN assignment to noncitzens
   when FO personnel do not comply with policies and procedures.
Page 7 – The Commissioner

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. The Agency also provided technical comments
that we considered and incorporated, where appropriate. The full text of SSA’s
comments is included in Appendix D. We commend SSA for its efforts to strengthen the
integrity of the SSN. We especially acknowledge the New York Region’s recently
developed MES Workload Management Information application and SS-5 Assistant.
We believe both of these applications will serve as valuable tools to ensure compliance
with SSA enumeration policies and procedures.




                                              S
                                              Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – How the Social Security Administration Assigns Original Social Security
             Numbers to Noncitizens

APPENDIX C – Scope, Methodology, and Sample Appraisal

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                           Appendix A

Acronyms
ASVI    Alien Status Verification Index
DHS     Department of Homeland Security
State   Department of State
EAE     Enumeration at Entry
FO      Field Office
GAO     Government Accountability Office
MES     Modernized Enumeration System
OIG     Office of the Inspector General
POMS    Program Operations Manual System
SSA     Social Security Administration
SSN     Social Security number
                                                                                   Appendix B

How the Social Security Administration Assigns
Original Social Security Numbers to Noncitizens
When a noncitizen applies for an original Social
Security number (SSN), he or she must complete,
sign and submit Form SS-5, Application for a Social
Security Card, to the Social Security Administration
(SSA) and provide acceptable documentary
evidence of (1) age, (2) identity, and (3) work
authorized lawful alien status and/or a valid nonwork reason.1

Field office (FO) personnel verify documents through (1) visual inspection, including the
use of a black light where appropriate and (2) verification with the Department of
Homeland Security (DHS), either on-line or manually. If documents do not appear valid,
then FOs send Form G-845, Document Verification Request, along with photocopies of
the applicant-provided documents, to DHS. If documents appear valid, FO personnel
query DHS’ Alien Status Verification Index (ASVI) database2 to verify the immigration
and work status of noncitizens.3 If ASVI information is not available, FO personnel send
Form G-845 to DHS. In addition, FO personnel record noncitizens’ immigration
documents and the verification of these documents (either the ASVI verification number
or annotation of “G-845 verified”) on the SSN application.

FO personnel enter SSN information into SSA’s Modernized Enumeration System
(MES). SSN applications awaiting verification of DHS immigration status are coded with
an “S” for suspect. After determining the validity of supporting evidentiary documents,
FO personnel sign and date the SSN application and clear the application in MES.
Once certified and cleared, MES performs numerous automated edits to validate certain
applicant information. If the application passes these edits, SSA systems assign an
SSN, issue an SSN card, and establish a record in SSA’s information systems.4




1
    Program Operations Manual System (POMS) sections RM 00202.001A and RM 00203.001C.
2
  The ASVI on-line database is a part of DHS’ Systematic Alien Verification for Entitlements program, an
intergovernmental information-sharing initiative designed to aid various agencies in determining a
noncitizen’s immigration status.
3
 FO employees have two additional sources to verify refugee and asylee status: the Department of State
Worldwide Refugee Admissions Processing System and the Executive Office for Immigration Review.
4
  The Numident file houses records of SSN cards issued over an individual’s lifetime, as well as
identifying information such as age, place of birth, and parent’s names.


                                                   B-1
Description of Evidentiary Documents

Along with an SSN application, noncitizens must present two documents that establish
age, identity, and work authorized lawful alien status or a valid nonwork reason for an
SSN. If the DHS document is used to establish noncitizen status and age, the
noncitizen must provide another document, such as a passport or driver’s license, to
establish identity. An individual signing the SSN application on behalf of another (for
example, a parent for his/her child) must establish his/her own identity.5

DHS issues numerous documents that indicate the status and class of noncitizens.
Following is a description of the general evidence requirements (not all-inclusive)
submitted with original SSN applications.

Lawfully Admitted for Permanent Residence are lawful immigrants who are residing
permanently in the United States with the authorization of DHS. Acceptable evidence of
this status includes the I-551, Alien Registration Receipt Card, commonly known as the
“Green Card,” and I-688, Temporary Resident Card.6

Nonimmigrants are temporary lawful residents to whom DHS grants limited stay in the
United States for a specific purpose, such as foreign Government officials, visitors, and
students. DHS issues an I-94 Arrival/Departure Record to all documented noncitizens.7
DHS also issues employment authorization documents to certain nonimmigrants as
evidence of their authorization to work in the United States.8 SSA has additional SSN
documentation requirements for certain classes of nonimmigrants. For example, to be
eligible for an SSN, an F-1 post-secondary student must provide, in addition to evidence
of age and identity, an I-20 ID (Student) Copy, Certificate of Eligibility for Nonimmigrant
(F-1) Student Status, from an accredited school, a current I-94, and evidence of
authorization to work on-campus and full-time school attendance.9

Asylees, refugees, and parolees come to the United States because of persecution or
emergency conditions. Form I-94, with the proper annotations, is acceptable evidence
of aslyee, refugee or parolee status. In cases when such individuals have no
documentation other than his/her DHS document, SSA will accept such documentation
(an exception to the two document requirement).10



5
    POMS, section RM 00203.200A.
6
    POMS, section RM 00203.410.
7
    POMS, section RM 00203.450.
8
    POMS, section RM 00203.500.
9
    SSA Policy Instruction EM-02093.
10
     POMS, section RM 00203.460 and RM 00203.020.


                                               B-2
                                                                        Appendix C

Scope, Methodology, and Sample Appraisal
We obtained a data extract from the Social Security Administration’s (SSA) Modernized
Enumeration System (MES) Transaction History File for March 2003. From this extract,
we identified a population of 106,675 noncitizens to whom SSA assigned original Social
Security numbers (SSN) for SSN applications processed by field offices (FO). From this
population, we randomly selected and reviewed a sample of 300 SSNs. For each of the
sampled SSNs, we

   •   requested from SSA a microfiche copy of Form SS-5, Application for a Social
       Security Card, including all information recorded at the bottom of the form;

   •   determined whether SSA personnel followed applicable policies and procedures
       when processing the SSN application; and

   •   independently verified the applicant’s noncitizen immigration status with the
       Department of Homeland Security (DHS). We verified the Alien registration
       number or Admission number via DHS’ Alien Status Verification Index (ASVI)
       database. Additionally, we manually verified with DHS those records where
       ASVI displayed exceptions or FO personnel failed to record an evidence
       description on the SSN application. We did not conduct an independent
       assessment of the quality of DHS’ records.

As part of this audit, we also visited six SSA FOs. To ensure geographic diversity, we
selected FOs in 3 of SSA’s 10 regions. Within each region, we first selected an FO that
issued a large number of original cards to noncitizens during our audit period. We then
selected another FO in the same location to supplement our work. At each FO, we met
with management and staff to obtain their views on the Agency’s policies, procedures,
and practices for processing noncitizen SSN applications. We observed personnel
processing 60 original noncitizen SSN applications.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We relied primarily on MES to complete our review, and determined that the MES data
used in the report is sufficiently reliable given the audit objective and use of the data.
We conducted our work from May 2003 through February 2004 in accordance with
generally accepted government auditing standards.




                                          C-1
Table 1 shows our sample size, results, and appraisal.
Table 1: Results and Projection

                            SAMPLE ATTRIBUTE APPRAISAL
 Total population of original SSNs assigned to noncitizens from SSN
                                                                         106,675
 applications processed at FOs
 Sample size                                                                300

 Number of instances in sample where FO personnel did not comply with
                                                                             89
 policy and procedures
 Estimate of instances in population where FO personnel did not comply
                                                                          31,647
 with policy and procedures
 Projection lower limit                                                   27,023
 Projection upper limit                                                   36,593

Projection made at the 90-percent confidence level.




                                         C-2
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM                                                                     33125-24-1073


Date:      July 30, 2004                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Field Offices' (FO) Compliance with
           Policies and Procedures When Processing Noncitizen Social Security Number (SSN)
           Applications” (A-08-04-14005)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                      D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "FIELD OFFICES' (FO) COMPLIANCE WITH POLICIES AND
PROCEDURES WHEN PROCESSING NONCITIZEN SOCIAL SECURITY
NUMBER (SSN) APPLICATIONS" (A-08-04-14005)

Thank you for the opportunity to comment on the draft report. We are pleased the report
acknowledges our efforts to improve the accuracy of SSN applications and that the
review found no instances where noncitizens inappropriately obtained an SSN.
Furthermore, we realize this is a vulnerable area for the Agency and are continuing our
efforts to develop methods to ensure SSNs are assigned only to those individuals that are
eligible to receive them. Our comments to the specific recommendations and some
technical comments are provided below.

Recommendation 1

SSA should reemphasize to FO personnel the importance of following all policies and
procedures, including the use of black lights to detect counterfeit documents, when
processing SSN applications from noncitizens.

Response

We agree and have taken some actions to strengthen the integrity of the processes that we
use to assign SSNs. In April 2004, we conducted an Interactive Video Training session
focusing on the identification of fraudulent documents, including the use of black lights
to verify the various check points on the Department of Homeland Security’s (DHS) and
other documents. We have made these procedures available online so they can be
accessed easily by interviewing employees. We are currently revising Program
Operations Manual System (POMS) instructions to clearly stress these procedures and
policies in reviewing immigration documents. In addition, on July 12, 2004, we released
a reminder to FO personnel emphasizing the need to utilize all tools available to the field
for detecting fraudulent documents.

Recommendation 2

SSA should conduct periodic studies to assess FO compliance with policies and
procedures for processing noncitizen SSN applications and take corrective action as
needed.

Response

We agree and have already taken steps to implement the recommended studies.
Specifically, as of October 2002, all SSA regional offices had plans in place to monitor
FO compliance with the collateral verification requirements, such as reviewing samples
of completed SS-5 applications. We have also included an assessment of FO staff
compliance with verification requirements as part of our ongoing enumeration quality
reviews. The published findings from these reviews are currently limited to addressing



                                          D-2
those enumeration failures classified as “critical errors” (a misassigned SSN that is either
assignment of an SSN that belongs to someone else or a multiple SSN that is not
cross-referred on the existing records) or “major errors” (errors that can result in an
additional or incorrect action in subsequent enumeration transactions or claims actions
because information on the applicant’s record is incorrect or incomplete). Based on the
results of this review, we will provide an analysis and assessment of documentation
failures in future reports. Finally, we continue to monitor compliance through our
Comprehensive Integrity Review Process program and develop process improvements to
address any identified weaknesses or errors.

In addition to these ongoing reviews, the recently developed New York Region’s
Modernized Enumeration System (MES) Workload Management Information application
provides information on SS-5 applications from foreign-born individuals who were
assigned SSNs in one day, but whose immigration documents were subject to
verification; US-born individuals over the age of one who were assigned SSNs in one
day, but whose birth records were subject to verification; and individuals who reside
outside the State or service area of the processing field office. The MES application
serves as a valuable resource for managers to identify: 1) employees who may not be
following current collateral verification procedures; 2) local weaknesses in the
enumeration process; and 3) any SS-5 workloads that appear to be unusual for particular
offices.

Recommendation 3

SSA should consider MES enhancements that would prevent SSN assignment to
noncitzens when FO personnel do not comply with policies and procedures.

Response

We agree. We are considering certain changes as suggested to the MES as part of our
Long Term MES Enhancements Initiative. We will consider revising the evidence
collection fields in MES to collect evidentiary data in specific fields, however, any
identified modifications will have to be considered as part of our Information Technology
prioritization process.

In the interim, the New York Region has developed a front-end software program to
improve FO compliance with the policies and procedures for processing SS-5
applications. The SS-5 Assistant application assists FOs to comply with the collateral
verification procedures by providing greater control over, and improving the accuracy of,
SSN applications filed by noncitizens. We expect to release Version 2.0 of the SS-5
Assistant in early fiscal year 2005. The new features of this version will: 1) serve as the
front-end input system that will collect all necessary data in mandatory fields and
propagate it to the current MES screens; 2) collect data in an intelligent manner as a data-
driven system that will understand the policy requirements and facilitate capturing the
mandated information from the user, include drop-down selections, and ensure the
character lengths for certain fields are appropriate; and 3) automatically query the



                                          D-3
Systematic Alien Verification for Entitlements system of DHS for the user at the time the
application is being entered (as the interface will require that verification is received)
before permitting processing of the SS-5 application.

We anticipate that the implementation of Release 2 of the SS-5 Assistant application will
eliminate the noncompliance situations identified in the report.




                                         D-4
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

   Ellen Justice, Auditor

   Susan Phillips, Auditor

   Brennan Kraje, Statistician

   Annette DeRito, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-04-14005.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
